CERTIFICATE OF SERVICE

I hereby certify that I am a member of the bar of the Supreme
Court of the United States, and that on this 16th day of April, 2019, I
caused all parties requiring service in this matter to be served with a
copy of the foregoing Application for Extension of Time to Petition for a
Writ of Certiorari by first-class mail, with postage prepaid, to the
addresses listed below:

GORDON J. MACDONALD
ATTORNEY GENERAL OF NEW HAMPSHIRE
SUSAN P. McGINNIS
SENIOR ASSISTANT ATTORNEY GENERAL

Criminal Justice Bureau
33 Capitol Street
Concord, NH 03301
(603) 271-3671
susan.mcginnis@doj.nh.gov
DAN HYNES
LIBERTY LEGAL SERVICES

212 Coolidge Ave.
Manchester, NH 03102
(603) 583-4444

